     DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                        Office of Audit Services,
                                                                        Region I
                                                                       John F. Kennedy Federal Building
                                                                       Boston, MA 02203
                                                                       (617) 565-2684
November 30, 2010

Report Number: A-01-10-00504

Ms. Karen Murray
Chief Compliance Officer
Yale New Haven Health System
Office of Privacy and Corporate Compliance (Howe-2nd)
789 Howard Avenue
New Haven, CT 06510

Dear Ms. Murray:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Yale New Haven Hospital’s Claims for Outpatient
Procedures That Included the Replacement of Medical Devices for Calendar Years 2007 and
2008. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-10-00504 on all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 –Ms. Karen Murray

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare and Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health & Human Services
            OFFICE OF


       INSPECTOR GENERAL




REVIEW OF YALE NEW HAVEN


  HOSPITAL’S CLAIMS FOR


OUTPATIENT PROCEDURES THAT


 INCLUDED THE REPLACEMENT


   OF MEDICAL DEVICES FOR


      CALENDAR YEARS


       2007 AND 2008






                       Daniel R. Levinson


                        Inspector General



                         November 2010


                         A-01-10-00504


                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and


 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                  EXECUTIVE SUMMARY



BACKGROUND

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, pays for hospital outpatient services under a prospective payment system.

Medical Device Replacement

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and neurostimulators. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. To offset these credits, Medicare reduces the payment
for the replacement of a device if (1) the device is replaced without cost to the provider, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device.

For services furnished on or after January 1, 2007, CMS established reporting requirements for a
provider that incurs no cost or that receives full credit for a replaced device. In such
circumstances, CMS requires the provider to report the modifier “FB” and to report reduced
charges on a claim that includes a procedure code for the insertion of a replacement device. For
services furnished on or after January 1, 2008, CMS also requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device.

Yale-New Haven Hospital

Yale New-Haven Hospital (the Hospital) is a 667-bed acute-care hospital located in New Haven,
Connecticut. National Government Services (NGS) processes and pays the Hospital’s Medicare
claims for outpatient services. NGS paid the Hospital a total of $2.3 million for 160 claims for
outpatient procedures that included the replacement of medical devices during calendar years
2007 and 2008.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate modifier and charges to reflect the credits received.

SUMMARY OF FINDINGS

The Hospital did not fully comply with Medicare requirements for obtaining credits available
from manufacturers for replaced medical devices and for reporting the appropriate modifier and
charges to reflect the credits received. For 33 of 36 sampled claims for calendar years 2007 and
2008, there were no available credits or the credits were partial credits received from

                                                 i
manufacturers that did not represent at least 50 percent of the cost of the replacement devices and
therefore were not reportable. For the three remaining sampled claims, medical device credits
were available from manufacturers and reportable; however:

   •		 For one claim, the Hospital did not obtain a credit that was available under the terms of a
       manufacturer’s warranty.

   •		 For two claims, the Hospital obtained full credits but did not report the “FB” modifier or
       reduced charges on the claims to alert NGS that payment adjustments were needed.

For the three claims that we identified, the Hospital was overpaid $27,030. Moreover, for these
claims, beneficiaries incurred $1,848 in additional copayment costs. These overpayments and
additional copayment costs occurred because the Hospital did not have controls to (1) obtain
credits available under the terms of manufacturers’ warranties or (2) report the appropriate
modifiers and charges to reflect credits received from manufacturers.

RECOMMENDATIONS

We recommend that the Hospital:

   •		 adjust and resubmit to NGS the 3 erroneous claims to correct overpayments totaling
       $27,030 and overstated copayment costs totaling $1,848,

   •		 determine whether it should have obtained credits for the remaining 124 claims that we
       did not review and resubmit the claims as appropriate, and

   •		 establish procedures to obtain credits available from manufacturers and report to NGS the
       credits obtained for replaced devices in accordance with Medicare requirements.

YALE NEW HAVEN HOSPITAL COMMENTS

In written comments to the draft report, the Hospital concurred with our recommendations. The
Hospital’s comments are included in their entirety as the Appendix.




                                                ii
TABLE OF CONTENTS



                                                                                                                           Page

INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1 

              Hospital Outpatient Prospective Payment System.......................................1 

              Credits for Replaced Medical Devices ........................................................1 

              Reimbursement for Medical Device Replacement ......................................1 

              Yale-New Haven Hospital ...........................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective ......................................................................................................2 

               Scope............................................................................................................2 

               Methodology................................................................................................3 


FINDINGS AND RECOMMENDATIONS ....................................................................4 


          MEDICARE REQUIREMENTS.............................................................................4 

               Prudent Buyer Principle...............................................................................4 

               Coding Requirements for Medical Device Credits......................................5 


          NONCOMPLIANCE WITH MEDICARE REQUIREMENTS..............................5 

              Hospital Did Not Obtain Available Credit...................................................5 

              Hospital Did Not Report That It Received Credits......................................6 


          MEDICARE OVERPAYMENTS ....................................................................…...6 


          RECOMMENDATIONS.........................................................................................6 


          YALE NEW HAVEN HOSPITAL COMMENTS……...……………………….. 6 


APPENDIX

           YALE NEW HAVEN HOSPITAL COMMENTS




                                                                    iii
                                             INTRODUCTION



BACKGROUND



The Medicare program, established by Title XVIII of the Social Security Act (the Act), provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. Part B of Title XVIII provides supplementary medical insurance for medical
and other health services, including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospital outpatient departments. 1

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the Medicare,
Medicaid, and SCHIP Balanced Budget Refinement Act of 1999, P.L. No. 106-113, CMS
implemented an outpatient prospective payment system (OPPS) for hospital outpatient services.
The OPPS was effective for services furnished on or after August 1, 2000. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the ambulatory payment classification (APC) group to which the service is assigned. CMS uses
Healthcare Common Procedure Coding System codes and descriptors to identify and group the
services within each APC group. All services and items within an APC group are comparable
clinically and require comparable resources. Under the OPPS, outlier payments are available
when exceptionally costly services exceed established thresholds.

Credits for Replaced Medical Devices

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and neurostimulators. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. Warranties vary among manufacturers and product lines
but commonly cover replaced devices on a pro rata basis depending on the age of the device.
Providers generally must send replaced devices back to the manufacturers within a specified time
after the replacement procedures to obtain credits.

Reimbursement for Medical Device Replacement

To offset the credits that a provider receives for costly devices replaced during outpatient
procedures, Medicare generally requires payment adjustments. Specifically, for 31 types of

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries to Medicare administrative contractors (MAC)
between October 2005 and October 2011. Most, but not all, of the MACs are fully operational. For jurisdictions
where the MACs are not fully operational, fiscal intermediaries continue to process Part B outpatient claims. For
purposes of this report, the term “Medicare contractor” means the fiscal intermediary or MAC, whichever is
applicable.


                                                        1

devices that fall within 21 APCs, Medicare reduces the payment for the replacement of the
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of the replaced device, or (3) the provider receives partial credit equal to or
greater than 50 percent of the cost of the replacement device.

For services furnished on or after January 1, 2007, CMS established reporting requirements for a
provider that incurs no cost or that receives full credit for a replaced device. In such
circumstances, CMS requires the provider to report the modifier “FB” and to report reduced
charges on a claim that includes a procedure code for the insertion of a replacement device. 2 For
services furnished on or after January 1, 2008, CMS also requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Providers must use these modifiers as required to ensure that Medicare
makes the appropriate payment adjustments.

In the preamble to the regulation implementing the billing requirements for device replacement
credits (71 Fed. Reg. 68072 (Nov. 24, 2006)), CMS stated that payment adjustments were
consistent with section 1862(a)(2) of the Act, which excludes from Medicare coverage an item or
service that neither the beneficiary nor anyone on his or her behalf has an obligation to pay.
According to CMS, payment of the full APC payment rate when a device was replaced under
warranty or when there was a full credit for the price of the replaced device effectively results in
Medicare payment for a noncovered item.

Yale-New Haven Hospital

Yale-New Haven Hospital (the Hospital) is a 667-bed acute-care hospital located in New Haven,
Connecticut. As the Medicare contractor for hospitals in Connecticut, National Government
Services (NGS) processes and pays the Hospital’s claims for Medicare outpatient services. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate modifier and charges to reflect the credits received.

Scope

Our audit covered $2.3 million in Medicare payments to the Hospital for 160 claims for
outpatient procedures that included the replacement of any of the 31 specified types of medical
devices. The 160 claims had dates of service during calendar years (CY) 2007 and 2008.

2
 The provider’s failure to report reduced charges on a claim with the “FB” modifier could result in excessive or
unwarranted outlier payments.
3
    NGS became a MAC in March 2008.


                                                         2

During this period, the Hospital did not submit any outpatient claims with “FB” or “FC”
modifiers. 4

We limited our internal control review to the Hospital’s controls related to (1) preparing and
submitting Medicare claims for procedures that included the replacement of medical devices and
(2) identifying and obtaining credits and reporting that manufacturers provided credits for
medical devices that were either covered under warranty or recalled.

We conducted our fieldwork at the Hospital in New Haven, Connecticut, and at three medical
device manufacturers in St. Paul, Minnesota, from February through June 2010. We also
contacted NGS.

Methodology

To accomplish our objective, we:

       •		 reviewed applicable Federal laws, regulations, and guidance;

       •		 extracted the Hospital’s outpatient paid claim data from CMS’s National Claims History
           file for CYs 2007 and 2008;

       •		 developed a computer application to identify outpatient claims that included procedures
           for the replacement of any of the 31specified types of medical devices and identified 160
           claims;

       •		 selected a judgmental sample of 36 of the 160 claims and reviewed the beneficiaries’
           medical records, accounts payable invoices, and manufacturers’ warranties to determine
           whether the Hospital should have submitted the claims with the applicable modifier and
           reduced charges;

       •		 reviewed the Hospital’s procedures for identifying and obtaining credits and reporting on
           its Medicare claims that the manufacturers provided credits for replaced devices;

       •		 interviewed officials from selected device manufacturers that conducted business with the
           Hospital to identify their requirements for issuing credits and obtained lists of credits
           issued to the Hospital to determine whether Medicare payment adjustments were needed;

       •		 calculated the correct payments for those claims for which payment adjustments were
           needed; and

       •		 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

4
    CMS did not require providers to report the “FC” modifier on claims until January 1, 2008.


                                                           3

sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital did not fully comply with Medicare requirements for obtaining credits available
from manufacturers for replaced medical devices and for reporting the appropriate modifier and
charges to reflect the credits received. For 33 of the 36 sampled claims for CYs 2007 and 2008,
there were no available credits or the credits were partial credits received from manufacturers
that did not represent at least 50 percent of the cost of the replacement devices and therefore
were not reportable. For the three remaining sampled claims, credits were available from
manufacturers and reportable; however:

   •		 For one claim, the Hospital did not obtain a credit that was available under the terms of a
       manufacturer’s warranty.

   •		 For two claims, the Hospital obtained full credits but did not report the “FB” modifier or
       reduced charges on the claims to alert NGS that payment adjustments were needed.

For the three claims that we identified, the Hospital was overpaid $27,030. Moreover, for these
claims, beneficiaries incurred $1,848 in additional copayment costs. These overpayments and
additional copayment costs occurred because the Hospital did not have controls to (1) obtain
credits available under the terms of manufacturers’ warranties or (2) report the appropriate
modifiers and charges to reflect credits received from manufacturers.

MEDICARE REQUIREMENTS

Prudent Buyer Principle

Under 42 CFR § 413.9, “All payments to providers of services must be based on the reasonable
cost of services ….” CMS’s Provider Reimbursement Manual, part 1, section 2102.1, states:
“Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed
what a prudent and cost conscious buyer pays for a given item or service. If costs are determined
to exceed the level that such buyers incur, in the absence of clear evidence that the higher costs
were unavoidable, the excess costs are not reimbursable under the program.”

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for
full or partial credits available under the terms of the warranty covering the replaced equipment.
The credits or payments that could have been obtained must be reflected as a reduction of the
cost of the equipment.”




                                                4

Coding Requirements for Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in its Medicare Claims
Processing Manual (the Manual) explains how a provider should report no-cost and reduced-cost
devices under the OPPS. For services furnished on or after January 1, 2007, CMS requires the
provider to report the modifier “FB” and reduced charges on a claim that includes a procedure
code for the insertion of a replacement device if the provider incurs no cost or receives full credit
for the replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device (the Manual,
chapter 4, § 61.3.1). If the provider receives full credit from the manufacturer for a replaced
device that is less expensive than the replacement device, the provider must report a charge that
represents the difference between its usual charge for the device being implanted and its usual
charge for the device for which it received credit (the Manual, chapter 4, § 61.3.2).

For services furnished on or after January 1, 2008, CMS requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Partial credits for less than 50 percent of the cost of a replacement
device need not be reported with any modifier.

NONCOMPLIANCE WITH MEDICARE REQUIREMENTS

Hospital Did Not Obtain Available Credit

For 1 of the 36 claims that we reviewed, the Hospital did not obtain a credit for a replaced device
that was available under the terms of the manufacturer’s warranty. According to the
beneficiary’s medical records for this claim, the device needed to be removed because the battery
was depleted. This device was replaced less than 3 years after insertion and thus was eligible for
a full credit. The Hospital should have obtained the credit, used the appropriate modifier and
charges on its claim, and received a reduced payment.

An overpayment of $15,776 for this claim occurred because the Hospital did not have controls to
obtain credits available under the terms of the manufacturer’s warranty. Specifically, the
Hospital did not follow the manufacturer’s procedures, such as returning the devices within a
specified number of days after their removal, to obtain the available credits.




                                                   5

Hospital Did Not Report That It Received Credits

For 2 of the 36 claims that we reviewed, the Hospital received full credits for replaced devices
but did not report the “FB” modifier or reduced charges on its claims. According to the
beneficiaries’ medical records, these devices needed to be removed because the batteries were
depleted. Under the terms of the warranty, the manufacturer provided full credits for the cost of
the replaced devices. Therefore, these claims should have been submitted with the “FB”
modifier and reduced charges to alert NGS that payment reductions were needed.

Overpayments of $11,254 for the 2 claims occurred because the Hospital did not have controls
for reporting medical device credits received from manufacturers. Specifically, the Hospital did
not have procedures for coordinating functions among the various departments (i.e., accounts
payable, reimbursement, coding, billing and clinical departments) to ensure that it submitted
claims with the appropriate modifier and reduced charges to initiate reduced payments for credits
received from manufacturers.

MEDICARE OVERPAYMENTS

For the three claims that we identified, the Hospital was overpaid $27,030. Moreover, for these
claims, beneficiaries incurred $1,848 in additional copayment costs.

RECOMMENDATIONS

We recommend that the Hospital:

   •		 adjust and resubmit to NGS the 3 erroneous claims to correct overpayments totaling
       $27,030 and overstated copayment costs totaling $1,848,

   •		 determine whether it should have obtained credits for the 124 claims that we did not
       review and resubmit the claims as appropriate, and

   •		 establish procedures to obtain credits available from manufacturers and report to NGS the
       credits obtained for replaced devices in accordance with Medicare requirements.


YALE NEW HAVEN HOSPITAL COMMENTS

In written comments to the draft report, the Hospital concurred with our recommendations. The
Hospital’s comments are included in their entirety as the Appendix.




                                                6

APPENDIX


                 APPENDIX: YALE NEW HAVEN HOSPITAL COMMENTS                                                Page 1 of 2




                                                                          r
                                                                    ~.,.. YALE NEW HAVEN
                                                                                     HEALTH



VIA FEDERAL EXPRESS

November 11,2010


Mr. Michael J. Annstrong
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services - Region I
John F. Kennedy Federal Building
Boston, MA 02203

        RE: 	    Yale New Haven Hospital 

                 Report No. A-OI-10-00504 

                 Response to Draft Report 


Dear Mr. Armstrong:

        I am writing on behalf of Yale-New Haven Hospital (the "Hospital") to respond to the
U.S. Department ofHealth & Human Services, Office ofInspector General's ("OIG's") draft
report entitled "Yale New Haven Hospital's Claims for Outpatient Procedures That Included the
Replacement ofMedical Devices for Calendar Years 2007 and 2008." The draft report makes
three Recommendations and asks the Hospital to indicate its "concurrence" or "nonconcurrence"
with each, along with an explanation for its position. Below, as requested, we address each of
these Recommendations. l

       Recommendation: adjust and resubmit to NGS the 3 erroneous claims to correct
overpayments totaling $27,030 and overstated copayment costs totaling $1,848.
       Response: Concur. The Hospital is working with NGS regarding the resubmission and
adjustment of these three claims. The Hospital notes that copayments for these three claims were
made by third party payers, not beneficiaries. Accordingly, the Hospital will make necessary
overpayment adjustments relating to these three claims with the appropriate payer.

       Recommendation: determine whether [the Hospital] should have obtained credit for the 

124 claims that [the 010] did not review and resubmit the claims as appropriate. 

       Response: Concur. The Hospital is reviewing the 124 Medicare claims to determine
whether they have or will receive any credits that may be due from manufacturers for replaced
medical devices related to them and will resubmit them as appropriate.


         In addition, the Hospital notes its position that the "Prudent Buyer" principle does not apply to the type of
claims addressed in the draft report.
                                                                                      789 Howard Avenue
                                                                                      New Haven, cr 06519-1300
                                                                                         Page 2 of 2




       Recommendation: establish procedures to obtain credits available from manufacturers
and report to NGS the credits obtained for replaced devices in accordance with Medicare
requirements.
       Response: Concur. The Hospital's policies and procedures that address returning
explanted devices to the manufacturer for warranty credit consideration and reporting credits
obtained for replaced devices in accordance with Medicare requirements are as follows: Each
Hospital clinical department involved with device implants/explants has implemented a written
procedure to track the devices sent to Pathology, and subsequently to the manufacturer, after they
have been evaluated and a determination made that a credit may be available. A committee has
been formed that will meet regularly to ensure that appropriate credits are received and to
provide the necessary information to the Hospital's Health Information Management (HIM)
Department The HIM Department will recode the procedures with the appropriate modifier and
the corrected claim will be submitted to National Government Services for re-adjudication. The
new policy requires an annual audit of these procedures to assure compliance with the Medicare
requirements.

       Thank you for giving us an opportunity to respond. As requested in the draft report, the
Hospital is also submitting an electronic copy in PDF format. Please contact me at 203-688­
3369 if you have any questions or any problems with the electronic copy.

Sincerely,




Karen Murray, MBA, CHC, F ACHE
Chief Compliance Officer

cc: 	   Marna Borgstrom, President & CEO
        James Staten, Executive Vice President, Corporate & Financial Services
